              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Development and Implementation of the
Department's Enterprise Architecture




DOE/IG-0686                                 April 2005
REPORT ON DEVELOPMENT AND IMPLEMENTATION OF THE
DEPARTMENT'S ENTERPRISE ARCHITECTURE


TABLE OF
CONTENTS

   Enterprise Architecture Development and Implementation

   Details of Finding ...........................................................................................1

   Recommendations...........................................................................................6

   Comments .......................................................................................................7


   Appendices

   1. Objective, Scope, and Methodology........................................................10

   2. Prior Reports ............................................................................................12
         (DOE/IG-0572, November 2002), disclosed that programs
         were developing separate systems that were not capable of
         full integration due to the lack of an architecture.

         The Office of the Chief Information Officer (CIO) and EM
         advised us that the program office architectures are
         integrated with the overall architecture design. The Office
         of the CIO indicated that periodic guidance documents, an
         enterprise architecture working group, and an architecture
         repository have ensured that program office architectures
         supported compatibility with the Department-wide effort.
         Finally, the Office of the CIO stated that it has established
         desktop standard guidance, such as eXCITE, and associated
         enterprise agreements to support architecture development
         and implementation.

         EM further elaborated that it was using the same Enterprise
         Architecture development tool and models as the
         Department to ensure integration. Additionally, EM
         pointed out that it had an up-to-date inventory of systems in
         the Repository and had conducted reviews to eliminate
         duplicative systems. We acknowledge that the Office of
         the CIO, EM and other programs have recently adopted
         measures to improve integration of their efforts with the
         Department's overall architecture. Furthermore, we
         recognize that EM has taken positive steps to identify and
         eliminate duplicative systems.

         Despite these efforts towards improving integration of
         program-level efforts with the Department's development
         of an overall architecture, we noted that further
         improvements are needed. For example:

            •   The periodic guidance referenced by the Office of
                the CIO has generally not been mandatory, did not
                contain information regarding standardization of all
                information technology systems at field sites and
                contractors, and was not formally released. As a
                result, the programs are not required to follow the
                standards contained in the guidance when they
                develop their future technology requirements.

            •   While we agree that the enterprise architecture
                working group is a positive step, program officials
                we spoke with during the course of the audit
                questioned the effectiveness of the group. For


Page 3                                            Details of Finding
                              example, one official responsible for developing a
                              program-level architecture expressed frustration that
                              there was little feedback to the programs, very little
                              two-way communication between the Office of the
                              CIO and programs, and limited training to support
                              the architecture efforts.

                          •   As previously noted, the Repository is still being
                              populated and much of the information relating to
                              the Department's desired information technology
                              environment has not been included.

                          •   Although the Department developed desktop
                              standards as part of eXCITE, the initiative is limited
                              to Headquarters and does not include all program
                              offices.


Policies, Plans and    The Department has not fully developed and implemented
Performance Measures   an enterprise architecture because policies were not in place
                       to guide development at all organizational levels, no formal
                       program plan existed, and performance goals tied to budget
                       needs had not been established.

                                                  Policy

                       A policy describing the roles and responsibilities for
                       developing and implementing an enterprise architecture had
                       not been developed. According to guidance published by
                       the Federal Chief Information Officers' Council (CIO
                       Council), such a policy should include a description of the
                       relationship of the architecture to the Department's strategic
                       plans and capital planning process; a commitment to
                       develop, implement, and maintain an architecture; and, a
                       description of the enforcement policy. The current
                       Department order on information technology management
                       requires the Chief Information Officer (CIO) to facilitate
                       development and maintenance of an information
                       technology architecture.

                       Current Departmental policy, however, does not delineate
                       roles, responsibilities, or authorities of Department
                       elements to ensure consistent development and
                       implementation of an architecture. While the Department
                       has begun drafting an update to this order, the draft does




Page 4                                                           Details of Finding
                       not include enforcement policies or describe methods to
                       integrate program architectures with the Department-wide
                       effort.

                                              Program Plan

                       The Department also did not have an approved program
                       management plan for addressing the development and
                       implementation of an architecture. According to CIO
                       Council guidance, such a plan should include the scope,
                       cost, and schedule of the architecture initiative,
                       incorporating information about how program-level efforts
                       would complement the overall enterprise architecture, as
                       well as the roles and responsibilities for completing the
                       effort. Although the Department had developed a draft
                       project plan to support the efforts, as required by project
                       management directives, it excluded the scope of the
                       development effort, costs, and definitive milestones. An
                       official in the Office of the CIO recently told us that a
                       complete project plan did not exist for the ongoing
                       development of the Department's architecture.

                                           Performance Goals

                       Officials also did not consistently emphasize the
                       development and implementation of an enterprise
                       architecture in its performance goals and measures.
                       Although the Department's 2003 Annual Performance Plan
                       included a goal to develop an enterprise architecture, the
                       goal was not met and it was dropped from the 2004 Annual
                       Performance Plan because of changing priorities.
                       Similarly, we found that certain program offices did not
                       establish performance measures for the development of
                       their information technology architectures. While the
                       status of the Department's architecture effort was tracked as
                       part of the President's Management Agenda (Agenda)
                       scorecard, the Department's budget request did not contain
                       goals that linked funding for architecture efforts to
                       performance, missions, or achievement of the Agenda's
                       goals.


Cost and Operational   As a result of the problems identified, the Department does
Impacts                not have an agency-wide architecture despite the
                       expenditure of $14 million and 10 years of effort. Without




Page 5                                                          Details of Finding
                     improvements, the Department may be unable to
                     implement an effective corporate approach for managing
                     information technology investments. As demonstrated by a
                     series of reports issued since 1998, the lack of an
                     architecture contributes to costly and potentially
                     incompatible and non-integrated systems. Specifically, the
                     lack of an enterprise architecture contributed to more than
                     $155 million in lost savings (see Appendix 2).

                     Additionally, without adequate program planning, the
                     Department could not ensure that the architecture
                     development effort was well organized, program-level
                     efforts were consistent with Department-wide efforts, and
                     that its costs and schedule were controlled. Further, the
                     absence of meaningful performance goals and measures
                     increase the risk that the Department will be unable to
                     manage its progress towards implementing an enterprise
                     architecture.


RECOMMENDATIONS      To ensure successful completion and implementation of an
                     enterprise architecture, we recommend that the
                     Department's Chief Information Officer, in coordination
                     with the Administrator, National Nuclear Security
                     Administration, and the Program Secretarial Officers:

                     1. Modify existing policy and guidance for the enterprise
                        architecture to describe the:

                            •   Relationship of the architecture to the
                                Department's strategic plans and capital
                                planning process;

                            •   Commitment to develop, implement, and
                                maintain an architecture;

                            •   Enforcement policy to implement the
                                architecture; and,

                            •   Roles and responsibilities, down to the program-
                                level, including the Department's contractors.

                     2.   Develop, approve, and implement a program
                          management plan that includes elements of cost,
                          scope, and schedule for developing both program-
                          level and the Department-wide architecture; and,

________________________________________________________________
Page 6                                          Recommendations
                     3.   Incorporate efficiency measures for architecture
                          development and implementation efforts into the
                          Department's annual performance budget.


MANAGEMENT           Management generally concurred with the intent of the
REACTION             recommendations, but initially disagreed with the focus
                     of several recommendations. Based on management's
                     comments and a number of discussions with program and
                     Office of CIO officials, we modified our recommendations
                     to recognize that the architecture should be viewed as an
                     ongoing program and that performance measures should be
                     included in the Department's budget to guide its further
                     development. After reviewing modifications to the report,
                     officials from the Office of the CIO indicated that
                     management generally concurred with each
                     recommendation, but continued to disagree with certain
                     conclusions.

                     In commenting on our conclusion that the Department had
                     not defined its information technology requirements needed
                     to make investment decisions, the CIO stated that
                     architecture standards are updated and published in each
                     version of the enterprise architecture. Management also
                     asserted that investments are reviewed annually for
                     compliance with the enterprise architecture as part of the
                     capital planning and investment control process.

                     Additionally, as we noted in the body of this report,
                     management indicated that it has taken actions necessary to
                     ensure that program office architectures are integrated with
                     support, and are compatible with the Department's
                     architecture. Management also cited initiatives that it has
                     underway to consolidate all aspects of common information
                     technology services throughout the Department as
                     examples of integration.

                     EM asserted that a project plan was followed during
                     development of its program architecture and that its major
                     investments and systems are aligned to the Agenda, as well
                     as Departmental and program strategic goals, as part of the
                     Repository. Finally, EM responded that it uses a capital
                     planning and investment control process that includes
                     architectural compliance to manage its investments.
                     During a subsequent conversation, an EM official
                     commented that EM's enterprise architecture efforts have

________________________________________________________________
Page 7                                                 Comments
                     always been directed towards the development of the
                     Department's enterprise architecture rather than focused on
                     a stand-alone program architecture.

                     The Office of Fossil Energy recognized that much work
                     needs to be done toward developing and implementing an
                     enterprise architecture, but believed that the Department
                     had taken positive steps to improve its architecture efforts.
                     Science and NNSA had no comments on the draft report.


AUDITOR COMMENTS     Management's comments are generally responsive to the
                     intent of our recommendations.

                     Contrary to the impressions given by management's
                     comments, our audit disclosed that a complete and
                     approved enterprise architecture does not exist and is not
                     being implemented across the complex. While we concur
                     that the Department has developed architecture-related
                     standards and guidance, these efforts, as discussed in the
                     body of this report, were not sufficient and did not result in
                     a complete and usable enterprise architecture.

                     Our finding in this area is bolstered by a September 2004
                     assessment conducted by the Office of Management and
                     Budget (OMB). In that assessment, the Department
                     achieved a score of 2.25 out of 5.0 on its latest architecture
                     assessment largely because it had not defined its target
                     architecture or associated transition plan. The lack of a
                     completed architecture was also cited as a contributing
                     factor to the Department's failure to achieve "green" on the
                     latest Agenda e-Government scorecard of December 31,
                     2004. Finally, we note that in March 2005, an Office of
                     CIO official stated that the Department needed to develop a
                     detailed enterprise "To Be" architecture and migration plan.

                     Further, although investments are reviewed as part of the
                     capital planning process, the results of the review are
                     limited because the process was undertaken utilizing an
                     architecture that was incomplete and not formally released.
                     For example, OMB's recent assessment disclosed that
                     the Department's enterprise architecture did not
                     demonstrate the ability to make improved resource
                     allocation decisions. We also noted that the Department's
                     internal architecture Completion and Use Plan indicates



________________________________________________________________
Page 8                                                 Comments
                     that the Department will begin to include examples of
                     improved resource allocation decisions in annual enterprise
                     architecture submissions to OMB by September 2005.

                     During meetings to discuss management's comments, EM
                     clarified that its project plan was not intended to encompass
                     the development of a complete program architecture.
                     Specifically, an official acknowledged that EM's project
                     plan was designed to support development and population
                     of an architecture repository. As such, EM's program-level
                     architecture did not conform to Departmental and OMB
                     guidance. For instance, EM's documentation did not define
                     how the target architecture would support the program's
                     mission or a plan for implementing such requirements. We
                     acknowledge that EM has taken positive steps by
                     implementing a capital planning process and conducting
                     e-Government reviews to identify and eliminate duplicative
                     systems.




________________________________________________________________
Page 9                                                 Comments
Appendix 1

OBJECTIVE             To determine whether the Department had developed and
                      implemented an enterprise architecture to guide its sizable
                      information technology investment.


SCOPE                 The audit was performed between October 2003 and
                      March 2005 at Department Headquarters in Washington,
                      D.C., and Germantown, MD; the National Energy
                      Technology Laboratory, Morgantown, WV, and Pittsburgh,
                      PA; the Chicago Office and Argonne National Laboratory,
                      Argonne, IL; and the Fermi National Accelerator
                      Laboratory, Batavia, IL. We also obtained information
                      from the Oak Ridge Reservation, Oak Ridge, TN, and the
                      Lawrence Livermore National Laboratory, Livermore, CA.


METHODOLOGY           To accomplish our audit objective, we:

                           •   Reviewed applicable laws and regulations
                               pertaining to development and implementation of
                               an enterprise architecture. We also reviewed
                               reports issued by the Office of Inspector General
                               and the Government Accountability Office;

                           •   Reviewed numerous documents related to the
                               Department's enterprise architecture efforts,
                               including documents supporting past development
                               efforts;

                           •   Reviewed guidance issued by OMB and the CIO
                               Council;

                           •   Held discussions with program officials and
                               personnel from Department Headquarters and
                               field sites reviewed, including representatives
                               from the Offices of Environmental Management;
                               Science; Chief Information Officer; and Nuclear
                               Energy, Science, and Technology; as well as the
                               NNSA; and,

                           •   Reviewed the Government Performance and
                               Results Act of 1993 and determined if
                               performance measures had been established for
                               enterprise architecture development.




________________________________________________________________
Page 10                            Objective, Scope, and Methodology
Appendix 1 (continued)

                      The audit was conducted in accordance with generally
                      accepted Government auditing standards for performance
                      audits and included tests of internal controls and
                      compliance with laws and regulations to the extent
                      necessary to satisfy the audit objective. Accordingly, we
                      assessed internal controls regarding the development and
                      implementation of the Department's enterprise architecture.
                      Because our review was limited, it would not necessarily
                      have disclosed all internal control deficiencies that may
                      have existed at the time of our audit. We also assessed
                      performance measures in accordance with the Government
                      Performance and Results Act of 1993 regarding
                      development of an enterprise architecture. As noted in the
                      report, the Department did not consistently emphasize
                      development and implementation of an architecture in its
                      performance goals. We did not rely on computer-processed
                      data to accomplish our audit objective.

                      An exit conference was held with the Office of Science on
                      March 7, 2005, and the Office of Environmental
                      Management on March 8, 2005. The Offices of the Chief
                      Information Officer and Fossil Energy, and the National
                      Nuclear Security Administration waived exit conferences.




________________________________________________________________
Page 11                            Objective, Scope, and Methodology
Appendix 2______________________________________

                                   PRIOR REPORTS

Enterprise Architecture Reports

The following audit reports issued by the Office of Inspector General since 1998 have
highlighted the impact of the Department's failure to implement an enterprise
architecture. Together, these reports demonstrate more than $155 million in lost cost
savings and operational inefficiencies resulting from the lack of an architecture.

•   Nuclear Materials Accounting Systems Modernization Initiative (DOE/IG-0556,
    June 2002). The Department may not realize its anticipated potential annual
    operating savings of $66 million. The Department had not adequately managed its
    activities to redesign or modernize its nuclear materials accounting systems.
    Moreover, planned and ongoing system development efforts were not fully consistent
    with the Corporate Systems Information Architecture. Organizations were allowed to
    continue to develop or upgrade accounting and production related systems at a
    projected cost of over $7.5 million.

•   Telecommunications Infrastructure (DOE/IG-0537, December 2001). The
    Department annually spends at least $4 million more than necessary to operate and
    maintain its telecommunications infrastructure. Duplicative data transmission
    infrastructures existed across the Departmental complex.

•   Information Technology Support Services Contracts (DOE/IG-0516, August 2001).
    Significant savings of as much as $44 million over a three year period are possible if
    the Department adopts an enterprise-wide approach to acquiring information
    technology support services. Headquarters and field elements routinely obtained
    information technology support services without making maximum use of existing
    Federal contracts designed for this purpose. Further, the Department had not
    established requirements for Headquarters program offices to consolidate the
    acquisition of information technology support services and for all Departmental
    organizations, including contractors, to formally consider the use of existing Federal
    contracts when acquiring information technology support services.

•   Virus Protection Strategies and Cyber Security Incident Reporting (DOE/IG-0500,
    April 2001). The Department could improve consistency, increase overall coverage,
    and save as much as $3 million by adopting an enterprise-wide approach to virus
    protection software acquisition. As a result, the Department spent over $3.8 million
    annually for a computer incident response capability that cannot adequately assess the
    threat experience of the complex as a whole.

•   Commercial off-the-Shelf Software Acquisition Framework (DOE/IG-0463,
    March 2000). Without a framework, the Department had been unable to take
    advantage of enterprise-wide software contracts that could have resulted in savings of
    $38 million. Specifically, the Department had not developed and implemented
    software standards or effectively used enterprise-wide contracts, key components of a

________________________________________________________________
Page 12                                              Prior Reports
Appendix 2 (continued)

    commercial off-the-shelf framework. The Department's inability to establish a
    framework was due to its decentralized information technology strategy and lack of
    organizational support.

Other Related Reports

•   Management of the Department's Personnel Security and Access Control Information
    Systems (DOE/IG-0651, June 2004). The Department had spent or plans to spend at
    least $13 million to develop, implement, or maintain multiple systems that will not
    fully benefit the complex. The Department had not developed a comprehensive
    framework for modernizing its personnel security and access control information
    systems and did not always follow sound system development practices. Absent a
    coordinated approach, the Department is unlikely to achieve its objective to improve
    the cost-effectiveness and efficiency of these critical systems.

•   Management Challenges at the Department of Energy (DOE/IG-0626,
    November 2003). The Department continued to experience challenges in a number of
    important areas, including information technology management. Specifically, the
    Department had not satisfied the requirements of the Clinger-Cohen Act to effectively
    manage information technology. Program elements were developing separate
    systems that were not capable of full integration with other business systems, did not
    link performance and financial data, and did not replace inefficient program and site-
    level financial management systems.

•   Special Report on The Department of Energy's Implementation of the Clinger-Cohen
    Act of 1996 (DOE/IG-0507, June 2001). The Department had not satisfied major
    requirements of the Clinger-Cohen Act to develop and implement an integrated,
    enterprise-wide information technology architecture and acquire information
    technology related assets in an effective and efficient manner. Despite many years of
    effort and significant expenditures, the Department had yet to deploy an integrated,
    enterprise-wide information technology architecture. Because of its decentralized
    approach to information technology management, the Department has been unable to
    constrain duplicative information systems development and effectively deploy
    corporate-level systems.

•   Corporate and Stand-Alone Information Systems Development (DOE/IG-0485,
    September 2000). The Department spent at least $38 million developing duplicative
    information systems. Despite efforts to implement several corporate-level
    applications, duplicative and/or redundant computer systems existed or were under
    development at virtually all organizational levels within the Department. Many
    organizations continued to invest in custom or site-specific development efforts that
    duplicated corporate systems.




________________________________________________________________
Page 13                                              Prior Reports
Appendix 2 (continued)

•   Review of the U.S. Department of Energy's Information Management Systems
    (DOE/IG-0423, August 1998). The Department had not developed and implemented
    an Information Technology Architecture. Additionally, only one program office had
    initiated development of its information architecture. The lack of an architecture
    could adversely affect the successful attainment of a strategic goal for $100 million in
    cost avoidances. These problems occurred due to a lack of organizational support for
    an Information Technology Architecture.

Government Accountability Office

•   Information Technology: Leadership Remains Key to Agencies Making Progress on
    Enterprise Architecture Efforts (GAO-04-40, November 2003). Attempting to
    modernize and evolve information technology environments without an enterprise
    architecture often results in operations and systems that are duplicative, not well
    integrated, unnecessarily costly to maintain and interface, and ineffective in
    supporting mission goals. The Department had only achieved stage 1 of 5 on the
    Government Accountability Office's Management Maturity Framework (Version 1.1).
    Specifically, the Department lacked an automated tool and written and approved
    policies, among other things, for developing and implementing an architecture.




________________________________________________________________
Page 14                                              Prior Reports
                                                             IG Report No. DOE/IG-0686

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
                                               and cost
effective as possible. Therefore, this report will be available electronically through the Internet at
                                       the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                    http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
